APPENDIX A

App. 1
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-13069
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 8:17-cv-01314-VMC-MAP
CHARLES DANIEL MAYE,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Middle District of Florida
-----------------------------------------------------------------------

(April 25, 2019)
Before MARCUS, WILSON, and ROSENBAUM, Circuit Judges.
PER CURIAM:
Charles Daniel Maye, a convicted felon no longer
serving a period of incarceration or supervised release,
appeals the district court’s order denying his petition

App. 2
for a writ of coram nobis. On appeal, he argues that the
court erred by denying his petition because his conduct
of accessing a federal law enforcement database for
non-law enforcement purposes did not constitute obtaining information that “exceeds authorized access”
within the meaning of the Computer Fraud and Abuse
Act (CFAA). We disagree and affirm.1
In 2004, a federal grand jury indicted Maye and
his codefendant, Leroy Collins. The indictment charged
Maye with violating the CFAA for unlawfully accessing the National Crime Information Center (NCIC)
federal database, which is restricted to law enforcement officers for law enforcement purposes, in order
to obtain information about Collins’ paramours and
provide that information to Collins. The indictment
charged that Maye was authorized to access the NCIC
database only for law enforcement purposes and that
Maye had been trained in this regard, but that he unlawfully accessed the database to provide information
to Collins, with whom he had an ongoing financial relationship.
A jury found Maye guilty of all charges. The district court sentenced Maye to 97 months’ imprisonment, followed by 3 years’ supervised release, and
ordered him to pay a $15,000 fine. Maye filed a notice
1

Maye also petitions for an initial hearing en banc. An en
banc hearing may be ordered where en banc consideration is necessary to secure or maintain uniformity of the court’s decision; or
the proceeding involves a question of exceptional importance.
Fed. R. App. P. 35(a). Because this appeal does not satisfy those
criterion, appellant’s motion for initial hearing en banc is denied.

App. 3
of appeal, which he then voluntarily dismissed. During
his incarceration, Maye unsuccessfully filed several petitions for habeas corpus. When Maye filed the instant
petition, he was no longer serving a period of incarceration or supervised release for his convictions.
We review a denial of coram nobis relief for abuse
of discretion, keeping in mind that an error of law is a
per se abuse of discretion. Alikhani v. United States,
200 F.3d 732, 734 (11th Cir. 2000) (per curiam). We review questions of subject matter jurisdiction de novo.
Goodman ex rel. Goodman v. Sipos, 259 F.3d 1327, 1331
(11th Cir. 2001). We also review a district court’s interpretation of a federal statute de novo. Stansell, et al. v.
Revolutionary Armed Forces of Colombia, 704 F.3d 910,
914 (11th Cir. 2013) (per curiam).
“The writ of error coram nobis is an extraordinary
remedy of last resort available only in compelling
circumstances where necessary to achieve justice.”
United States v. Mills, 221 F.3d 1201, 1203 (11th Cir.
2000). The bar for coram nobis is high, and the writ
may issue only when: (1) “there is and was no other
available avenue of relief ”; and (2) “the error involves
a matter of fact of the most fundamental character
which has not been put in issue or passed upon and
which renders the proceeding itself irregular and invalid.” Alikhani, 200 F.3d at 734 (quotations and citations
omitted). A claim is not facially cognizable on coram
nobis review if the defendant could have, but failed to,
pursue the claim through other available avenues. Id.
Furthermore, district courts may consider coram nobis
petitions only when the petitioner presents sound

App. 4
reasons for failing to seek relief earlier. Mills, 221 F.3d
at 1204. We have stated that it is difficult to conceive
of a situation in a federal criminal case today, given the
availability of habeas review, where coram nobis relief
would be necessary or appropriate. Lowery v. United
States, 956 F.2d 227, 229 (11th Cir. 1992) (per curiam).
But claims of jurisdictional error have historically
been recognized as fundamental, so the doctrine of procedural default does not apply to such claims. United
States v. Peter, 310 F.3d 709, 712–13 (11th Cir. 2002)
(per curiam). Thus, a genuine claim that the district
court lacked jurisdiction may be a proper ground for
coram nobis relief as a matter of law. See Alikhani, 200
F.3d at 734.
The CFAA makes it a crime for any person to intentionally access a computer without authorization or
in a manner that “exceeds authorized access” and
thereby obtain information from any department or
agency of the United States. 18 U.S.C. § 1030(a)(2)(B).
The Act defines “exceeds authorized access” as “access[ing] a computer with authorization and [ ] us[ing]
such access to obtain or alter information in the computer that the accessor is not entitled to obtain or alter.” Id. § 1030(e)(6). In United States v. Rodriguez, we
interpreted the phrase “exceeds authorized access”
and determined that a Teleservice representative
who obtained personal information from a database
for non-business reasons—which violated an administrative policy that authorized the employee to use
the database only for business reasons—exceeded his

App. 5
authorized access under the CFAA. 628 F.3d 1258,
1263 (11th Cir. 2010).
“Under the well-established prior panel precedent
rule . . . the holding of the first panel to address an
issue is the law of this Circuit, thereby binding all subsequent panels unless and until the first panel’s holding is overruled by the Court sitting en banc or by the
Supreme Court.” Smith v. GTE Corp., 236 F.3d 1292,
1300 n.8 (11th Cir. 2001). We have categorically rejected any exception to the prior panel precedent rule
based upon a perceived defect in the prior panel’s reasoning or analysis as it relates to the law in existence
at that time. Id. at 1303.
The issue on appeal—whether Maye stated a
claim for coram nobis relief by asserting that his indictment did not charge a CFAA violation—potentially
qualifies for coram nobis relief, as it alleges that the
court lacked subject matter jurisdiction to convict him.
But our holding in Rodriguez forecloses Maye’s assertion that the conduct charged in his indictment did
not violate the CFAA. See Rodriguez, 628 F.3d at 1263
(holding that an employee who accessed a database
he was otherwise entitled to access for an improper
purpose and in violation of administrative policy exceeded his authorized access under the CFAA); see also
Smith, 236 F.3d at 1300 n.8, 1303. Because Maye only
had authority to access the NCIC database for law
enforcement purposes, his conduct of accessing the database for non-law enforcement purposes and misappropriating information from the database exceeded

App. 6
his authorized authority under the CFAA. See Rodriguez, 628 F.3d at 1263. Accordingly, we affirm.
AFFIRMED.

APPENDIX B

App. 7
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
CHARLES DANIEL MAYE,
Petitioner,
Case No.
8:17-cv-1314-T-33MAP
8:04-cr-321-T-30MAP

v.
UNITED STATES OF
AMERICA,
Respondent.

ORDER
(Filed Feb. 16, 2018)
This Order analyses [sic] why Charles Daniel
Maye is not entitled to a petition for writ of error coram
nobis. Maye is represented by counsel.
PROCEDURAL HISTORY
A jury found Maye guilty of counts one, two, four,
and five of the Superseding Indictment. Count one
charged Maye with conspiracy to access a computer
without authorization for private financial gain, in
violation of 18 U.S.C. § 371. Count two changed Maye
with accessing a National Crime Information Center
(NCIC) computer without authorization, in violation
of 18 U.S.C. §§ 1030(a)(2)(B) and (c)(2)(B) and (ii) and
18 U.S.C. § 2 (offense ending July 30, 1999). Count
four charged Maye with accessing an NCIC computer
without authorization in violation of 18 U.S.C.

App. 8
§§ 1030(a)(2)(B) and (c)(2)(B) and (ii) and 18 U.S.C. § 2
(offense ending August 11, 2003). Count five charged
May [sic] be [sic] making false statements in violation
of 18 U.S.C. § 1001(a)(2). (Doc. cr-166).
On July 24, 2006, this Court sentenced Maye to 97
months incarceration and 36 months supervised release. The Court ordered him to pay a $15K fine. (Id.).
Maye filed a notice of appeal (Id. at 168), which he voluntarily dismissed. (Id. at 177).
In his petition for coram nobis, Maye alleges that:
(1) he is factually innocent; (2) a Ninth Circuit case,
United States v. Nosal, 676 F.3d 854 (9th Cir. 2012),
contrary to binding Eleventh Circuit precedent, more
appropriately applies to his conduct; and (3) 18 U.S.C.
§ 2722 preempted 18 U.S.C. § 1030.
Maye’s arguments fail because he has not met his
procedural or substantive burdens, and because he is
factually and legally guilty.
Background Information
related to the Criminal Charges
In December 2004, Maye, then a sworn deputy
sheriff with the Hillsborough County Sheriff ’s Office,
and codefendant Leroy Collins, were named in a fivecount Superseding Indictment. The National Crime Information Center (NCIC) is a national computerized
database maintained by the Federal Bureau of Investigation (FBI) and located in West Virginia. The NCIC
database collects and maintains records related to

App. 9
criminal histories of millions of people as well as persons and vehicles sought by law enforcement agencies
nationwide. Access to the NCIC database is restricted
to law enforcement officers authorized to access it for
law enforcement purposes.
The United States assists states in maintaining
similar records systems that are linked to, and part of,
the NCIC system. Florida maintains such a system
called the Florida Crime Information Center (FCIC).
The Florida Department of Law Enforcement (FDLE),
Division of Criminal Justice Information Services
(CJIS), is the central repository for criminal history information for Florida. Collectively, the NCIC and FCIC
databases, in addition to criminal history information,
also contain private information including home address and social security number information.
State and local law enforcement agencies, including the Hillsborough County Sheriff ’s Office, are permitted under strict guidelines to access the NCIC
database for law enforcement purposes. Those law enforcement agencies are required to control access to the
NCIC database and to ensure that the NCIC database
will be accessed only for lawful criminal justice purposes. Law enforcement operators who are permitted
to access the NCIC database are trained regarding the
strict requirements for the NCIC use.
Prior to April 1996, Maye completed numerous
training sessions on the lawful uses of the NCIC database. He was a certified Limited Access Terminal

App. 10
Operator, and was knowledgeable about the strict requirements for its use.
Law enforcement officers with the Hillsborough
County Sheriff ’s Office could access the NCIC data
base via computers located in their workplace or in patrol vehicles via mobile data terminals.
Collins was the owner of a migrant work camp located in Wimauma, Florida. From approximately 1996
through and including 2004, Maye collected rent for
Collins from migrant workers living in the camp. Collins compensated Maye for this work. Maye had an ongoing financial relationship with Collins. (Doc cr-6).
The Grand Jury charged Maye with:
1. conspiracy to intentionally access a computer without authorization and in excess of
authorization, to obtain information from a
department or agency of the United States, for
the purpose of private financial gain and in
furtherance of criminal acts of extortion, in violation of 18 U.S.C. § 1030(a)(2)(B), and knowingly and willfully making materially false
statements to an FBI agent, in violation of 18
U.S.C. § 1001(a)(2), all in violation of 18 U.S.C.
§ 371 (Count One);
2. intentionally accessing a computer – the
NCIC (National Crime Information Center)
computer database – without authorization
and in excess of authorization, to obtain information from a department or agency of the
United States, for the purpose of private financial gain and in furtherance of criminal

App. 11
acts of extortion in violation 18 U.S.C.
§ 1030(c)(2)(B) (i) and (ii) and 18 U.S.C. § 2
(Counts Two and Four); and
3. knowingly and willfully making false
statements during an interview with a Special Agent of the FBI, in violation of 18 U.S.C.
§ 1001(a)(2) (Count Five).
(Id.).
As discussed supra, the jury found Maye guilty of
several charges. (Id. at 152). Maye was released from
federal custody September 10, 2013, and completed his
supervised release September 9, 2016. Since 2007,
Maye has repeatedly – and unsuccessfully – attacked
his conviction and sentence.
Maye’s 28 U.S.C. Section 2255 Motions To Vacate
In his first Section 2255 motion, Case No. 8:07-cv653-T-30EAJ, Maye claimed prosecutorial misconduct
due to selective prosecution; presentation of false evidence; violations of his civil and due process rights; excessive sentence; and ineffective assistance of counsel
due to counsel’s failure to move to sever and failure to
allege violation of the statute of limitations. Maye
withdrew that motion. (Id. at Docs. 4,5).
A few months later, Maye filed a Section 2255 motion that this Court struck. See Case No. 8:07-cv-1258T-30EAJ. Maye then filed an amended motion to vacate, raising nine grounds for relief:

App. 12
Ground One: counsel failed to object to the introduction of prejudicial evidence at trial.
Ground Two: counsel failed to move for dismissal of the Superseding Indictment prior to
trial despite the lack of “ends of justice” findings by the court when granting Maye’s requests for continuances.
Ground Three: counsel failed to move for dismissal of the Superseding Indictment even
though it “substantially broadened” the original charges.
Ground Four: counsel failed to raise a claim of
prosecutorial misconduct.
Ground Five: counsel failed to call key defense
witnesses.
Ground Six: counsel failed to “flesh out” government witness Gregory Brown’s bias
against Maye.
Ground Seven: counsel was ineffective due to
the cumulative prejudicial effects of the alleged errors set forth in Grounds 1, 4, 5, and
6.
Ground Eight: Maye’s claim of “actual innocence” allowed the foregoing grounds to be
heard despite failure to raise them on direct
appeal.
Ground Nine: counsel was ineffective in advising Maye that he had no appealable issues after trial.
(Id. at Doc. 8).

App. 13
The Court denied Maye’s amended motion in February 2008. (Id. at Doc. 25). The court denied Maye’s
application for a certificate of appealability, as did the
Eleventh Circuit. (Id. at Docs. 29, 31, 32). The Eleventh
Circuit also denied Maye’s motion for reconsideration
because Maye “failed to make a substantial showing of
the denial of a constitutional right.” (Id. at Doc. 33).
Maye then moved to reopen his 2007 § 2255 proceeding by filing a Fed. R. Civ. P. Rule 60(d)(1) motion
in Case No. 8:10-cv-2327-T-30EAJ. Maye described the
filing as an “[i]ndependent [a]ction in [e]quity,” asserting that the Court failed to address Ground Five of his
amended section 2255 motion. (Id. at Doc. 1). This
Court denied relief, finding that Maye was effectively
pursuing a second or successive § 2255 motion without
first obtaining authorization from the Eleventh Circuit. (Id. at Doc. 5). Notwithstanding that denial, Maye
filed a “Motion to Take Judicial Notice of Adjudicative
Facts” arguing, among other things, that “Congress did
not intend 18 U.S.C. § 1030 or any of its amendments
to apply to state computers or their databases,” an argument similar to one of his arguments in the present
coram nobis petition. (Id. at Doc. 7). The Court denied
Maye’s motions. (Id. at Docs.18-24). The Court denied
Maye’s application for a certificate of appealability. (Id.
at Docs. 25, 27). May filed a notice of appeal. (Id. at Doc.
26). The Eleventh Circuit denied Maye’s application
for certificate of appealability. (Id. at Doc. 33). The
Eleventh Circuit also denied Maye’s related appeals.
(Eleventh Circuit Case Nos. 12-14819 and 14-14059).

App. 14
Maye then filed a 28 U.S.C. § 2241 petition for writ
of habeas corpus in the United States District Court
for the Southern District of Georgia, raising arguments similar to those he raises in the present petition
for writ of error coram nobis: that is, actual innocence
based on new case law. That Court denied Maye’s petition, which he unsuccessfully appealed. Maye petitioned for Supreme Court review, presenting two
questions:
1. Should this Court exercise its discretion
to interpret the Computer Fraud and Abuse
Act (CFAA), codified at 18 U.S.C. § 1030, by resolving the conflict between the Ninth Circuit
and the Eleventh, Fifth and Seventh Circuits
on the interpretation of § 1030(e)(6)?
2. In light of the requirement of § 1030(a)(2)(B)
that information be obtained from a federal
database, does the Petitioner’s conviction under the CFAA for accessing and obtaining information from a state database violate due
process; and if so, did the lower courts violate
principles established by this Court when
they failed to determine whether they had
federal subject matter jurisdiction, changed
the statute to eliminate the jurisdictional element, and failed to retroactively apply a judicial construction of the statute that made him
factually innocent?
Maye v. Haynes, 2012 WL 3805776 (July 2, 2012). On
January 22, 2013, the Supreme Court denied certiorari. Maye v. Haynes, 133 S. Ct. 981 (2013).

App. 15
Maye filed his final Section 2255 motion in 2013,
alleging due process violations based on prosecutorial
misconduct. (Case No. 8:13-cv-3104-T-30EAJ). This
Court dismissed the motion, without prejudice, for lack
of authorization to file a second or successive § 2255
motion. (Id. at Doc. 3). This Court denied Maye’s application for a certificate of appealability. The Eleventh
Circuit denied Maye’s application for a certificate of
appealability and denied Maye’s motion to consolidate
his appeal with appellate case number 14-14059. (Id.
at Docs. 5, 9).
Present Petition for Writ of Error Coram Nobis
Maye’s new legal argument is one of preemption,
claiming that 18 U.S.C. § 2722 preempts 18 U.S.C.
§ 1030(a)(2)(B). Maye directly and indirectly asserts
erroneous claims of factual and legal innocence (e.g.,
what he did was within the scope of his duties as a deputy).
Maye’s and Collins’ Criminal Actions
Maye and Collins met and began an ongoing financial relationship in the early 1990’s. Collins was a businessman who owned a mobile home park and would
often assist law enforcement. Maye worked for Collins
at the mobile home park as a manager, making repairs
and collecting rent. When the two men met, Collins
was in the midst of a relationship with Linda Bobo.
That relationship ended in 1996, and Bobo began a
new relationship with James McLemore. Several

App. 16
months later, Maye began to access the National Crime
Information Center (NCIC) and Florida Crime Information Center (FCIC) databases to acquire restricted
and private information about Bobo – at Collins’ request. Maye also stopped Bobo’s vehicle, gave her a
warning for driving with a suspended license, and issued her a traffic citation.
Maye testified at his 2006 trial that he accessed
the databases as part of an ongoing investigation of
Bobo’s alleged drug dealing. Maye also claimed that he
asked Collins to get McLemore’s tag number so that
Maye could pass it along to the street crimes unit.
Maye testified at trial that he never passed confidential information about Bobo to Collins. Despite Maye’s
alleged discretion, Collins still found Bobo’s address
(which she had been concealing) and caused her home
to be burglarized.
Collins and others – Willie McCrary and “Little
Willie” – claimed that Maye “ran McLemore’s tag” for
them after the three men spotted McLemore’s vehicle
in Bradenton. Maye provided Collins with McLemore’s
home address as well, and shortly thereafter Collins,
McCrary and “Little Willie” went to that address and
spoke with McLemore’s then-estranged wife.
On June 16, 1996, Bobo and McLemore were returning to their home when McLemore was shot and
wounded in a drive-by shooting. The shooter’s vehicle
was similar to one owned by Collins. Several days later,
Collins called Bobo at the hospital where McLemore
was being treated. Collins aggressively attempted to

App. 17
persuade Bobo to leave McLemore, but Bobo refused.
Soon thereafter, Bobo and McLemore moved to a different address.
Between June and September 1996, Maye continued to access the NCIC and FCIC databases concerning Bobo. Specifically, he ran searches on Bobo on July
9; July 12; July 26; September 2; and September 3.
Maye also requested Bobo’s official driving record from
the Florida Department of Highway Safety and Motor
Vehicles.
In September 1996, during the time Maye was obtaining information on Bobo, Collins had dinner with
Bobo and threatened to harm McLemore if Bobo refused to leave him. Bobo declined to do so. Collins told
Bobo that “they’d get him to leave,” and that “he’ll go
if I put enough fire up his ass.” A few days later, Collins
shot McLemore in the head, killing him.
Over the next two months, Collins and Maye attempted to locate Bobo. Collins and Bobo had a recorded conversation three days after McLemore’s
murder in which Collins continued to attempt to lure
Bobo back into a relationship with him. He also
claimed to have access to computer databases.
Collins told his cohort, McCrary, that Maye was
going to put Bobo in jail. That month, Maye again
stopped Bobo for driving with a suspended license, and
arrested her. Collins paid Bobo’s bond and attempted
to take her from jail, but Bobo refused to leave with
him.

App. 18
On November 24, 1996, a man threw an unidentified caustic substance into Bobo’s face, blinding her. At
trial, the Government argued that Collins arranged for
this attack to occur. The Government also argued that
Maye made false and misleading statements to Florida
Department of Law Enforcement (FDLE) officials and
to the Palmetto Police Department (PPD) to cover up
his involvement in the conspiracy
The conspiracy did not end there. In July 1999,
Maye also accessed the NCIC and FCIC databases to
acquire restricted or private information about another of Collins’ former girlfriends, Angeletta Hill Benavidez Williams. Maye, Collins, and Collins’ son even
went to Williams’ home to help Collins take Williams’
truck.
In August 2003, Collins accosted another former
girlfriend, Veronica Smith. Collins attempted to force
Smith to disclose her home address, but she refused. A
few days later, Maye searched for Smith in the NCIC
and FCIC databases to acquire restricted or private information. He attempted to justify the search by claiming that it was in conjunction with an ongoing
investigation, but there was no evidence of such investigation.1

1

See Case Number 8:07-cv-1258-T-30EAJ at Doc. 25; see also
Presentence Investigation Report dated July 18, 2006 ¶¶ 13-41
(more extensive facts listed therein).

App. 19
The facts make clear that Maye was not acting as
a deputy sheriff. The jury rejected that defense and the
federal courts have consistently rejected it.
DISCUSSION
Maye fails to open the door to coram nobis relief.
A defendant may directly appeal the conviction
and petition for a writ of certiorari. Appellate review is
not a “second bite at the apple”: the defendant benefits
from de novo scrutiny only for legal error, and, if he
failed to preserve his issue in the district court, he
bears a heavy evidentiary burden on attack.
Once a defendant’s conviction is final, he may collaterally attack that conviction under 28 U.S.C. § 2255,
but only if in custody, and then only on a subset of legal
errors that pose great constitutional harm.
If collateral relief eludes him, the convicted federal
defendant may try the extraordinary 28 U.S.C. § 2241
petition for writ of habeas corpus, but only if he continues to suffer a deprivation of liberty, and for an even
smaller subset of claims. He must also establish that
prior collateral challenge(s) were not “adequate or effective.” Each layer of subsequent review narrows the
avenues for relief, and includes new and significant
procedural and substantive hurdles. Maye has exhausted each of the preceding avenues of potential relief and, where his efforts were directed at the merits,
lost each time.

App. 20
A convicted defendant who no longer suffers any
restraint on his liberty generally has no avenue to
challenge a truly historical conviction. “The reason to
bend the usual rules of finality” goes “missing when
liberty is not at stake.” United States v. Keane, 852 F.2d
199, 202-03 (7th Cir. 1988); see Lane v. Williams, 455
U.S. 624, 630-31 (1982). “Courts must conserve their
scarce time to resolve the claims of those who have yet
to receive their first decision.” Keane, 852 F.2d at 203.
The last potential action for a person who has
served his sentence, but still seeks to challenge his convictions, is the writ for error coram nobis. The All Writs
Act, 28 U.S.C. § 1651(a), provides federal courts the authority to issue writs of error coram nobis. United
States v. Mills, 221 F.3d 1201, 1203 (11th Cir. 2000). “A
writ of error coram nobis is a remedy available to vacate a conviction when the petitioner has served his
sentence and is no longer in custody.” United States v.
Peter, 310 F.3d at 712. See also, United States v. Rahim,
___ F. App’x. ___, 2018 WL 580618, at *2 (11th Cir., Jan.
29, 2018).
Coram nobis is the most narrow challenge because
“courts may consider coram nobis petitions . . . only
where no other remedy is available and the petition
presents sound reasons for failing to seeks [sic] relief
earlier.” Mills, 221 F.3d at 1203-04; see also Alikhani v.
United States, 200 F.3d 732, 734 (11th Cir. 2000) (coram nobis available only when there “is and was” no
other avenue of relief ). In other words, unless the petitioner establishes that he could not have raised his
argument while still suffering a deprivation of liberty,

App. 21
he cannot raise it when he is no longer in custody. See,
e.g., Jackson v. United States, 375 F. App’x. 958, 960
(11th Cir. 2010); United States v. Spellissy, 513 F.
App’x. 915, 916 (11th Cir. 2013); see also United States
v. Obasohan, 318 F. App’x. 798, 800 (11th Cir. 2009).
Maye’s petition raises arguments and issues already
raised in various other pleadings, or arguments in support of a request to excuse his failure to do so. Either
way, Maye fails to meet his threshold burden for coram
nobis relief.
The coram nobis door is heaviest to open for relief
because the petitioner must establish not only that the
purported error in his long-closed criminal case was
constitutional, but that it is truly “fundamental.” See
United States v. Addonizio, 442 U.S. 178, 186 (1979);
Moody v. United States, 874 F.2d 1575, 1576 (11th Cir.
1989) (Coram nobis jurisdiction only available for error
“of the most fundamental character”); Ramdeo v.
United States, 2017 WL 6611047 *3 (S.D. Fla., Oct. 11,
2017). The error must call into question not just the
propriety of the petitioner’s past conviction, but the
very propriety of the past criminal proceeding itself,
rendering that proceeding potentially “irregular and
invalid.” Mills, 221 F.3d at 1203; see Alikhani, 200 F.3d
at 734; United States v. Peter, 310 F.3d 709, 712 (11th
Cir. 2002); see also United States v. Denedo, 556 U.S.
904, 915-16 (2009). Maye’s allegations fail this test.
The Eleventh Circuit has stated that any truly
fundamental defect that might merit coram nobis review must concern – as it did under the original understanding of coram nobis – an “error of fact,” not law,

App. 22
that has “never [yet] been put in issue” and that “lies
outside the record that the court of judgment had before it.” See Alikhani, 200 F.3d at 734; Myles v. United
States, 170 F.2d 443, 444 (5th Cir. 1948); see also
United States v. Morgan, 346 U.S. 502, 507-11 & n.21
(1954) (describing original purpose of the writ and use
in accordance with availability “at common law to correct errors of fact”); Blake, 395 F.2d at 758-59; cf. Addonizio, 442 U.S. at 186 (“Coram nobis jurisdiction has
never encompassed all errors of fact.”). The Eleventh
Circuit has “recognized that it is difficult to conceive of
a situation in a federal criminal case today where coram nobis relief would be necessary or appropriate.”
Roggio v. United States, 597 F. App’x. 1051, 1052 (11th
Cir. 2015) (citations omitted).
The Court has found one instance where coram
nobis was appropriate. In Peter, the Eleventh Circuit
found that the district court lacked subject-matter jurisdiction. By its nature, a jurisdictional error is of
“such a fundamental character as to render proceedings irregular and invalid.” Peter, 310 F.3d at 715. In
Peter, the Court granted coram nobis relief where the
district court did not have jurisdiction to accept the defendant’s guilty plea because, based on the retroactive
effect of the Supreme Court’s decision that licenses
were not “property” under the mail fraud statute, the
defendant’s actions never violated the mail fraud statute and did not constitute criminal conduct. Id. See
United States v. Spellissy, 2017 WL 4387165, at *1
(11th Cir., Oct. 3, 2017)

App. 23
Otherwise, neither the Eleventh Circuit nor the
Supreme Court have suggested that any error, other
than the complete deprivation of counsel (a common
exception to absolute rules against relief ) – or a mistake of fact under which everyone labored during the
case – could support a coram nobis petition. Myles, 170
F.2d at 444 (“[T]he errors of fact capable of being corrected, which affect the validity of the legal proceeding,
are of a very limited class. The errors to which the coram nobis writ applies ordinarily are not errors of the
Court, but mistakes or oversights of the parties that
vitiate the judgment.”); see also Mayer, 235 U.S. at 6768.
Thus, to pass through the coram nobis door, a petitioner must surmount formidable threshold barriers.
Even if the petitioner surmounts the barriers, this
Court may deny the coram nobis petition unless doing
so abuses the Court’s discretion. See Alikhani, 200 F.3d
at 734.
Coram nobis is a demanding standard because the
petitioner must hurdle, during the merits assessment
of his petition, all barriers to relief that would have
applied were he to have attacked the Court’s judgment
at any previous point. See, e.g., Chaidez v. United
States, 568 U.S. 342, 358 (2013) (coram nobis not
available due to Teague non-retroactivity); Peter, 310
F.3d at 712 (procedural default did not bar relief only
because error was of subject-matter jurisdiction).
Maye fails to address all of these barriers to relief.
In fact, he acknowledges that he cannot meet all of
them including issues previously raised: “The Ninth

App. 24
Circuit’s decision in Christenson, and the Second Circuit’s decision in Valle confirms what the Petitioner
begged the courts to recognize inartfully in his § 2255
motion and in each succeeding post judgment motion.”
(Doc. 1 at 25). At best, Maye tries to excuse his inability
to surmount all of the procedural bars (e.g., Id. at 26,
n.10) or argues that his petition raises a jurisdictional
claim that would save him (e.g., arguing it is irrelevant
that he previously attacked his conviction under 2255
and other post judgment motions because the statute
proscribing his offense is preempted by 18 U.S.C.
§ 2722). (Id. at 26).
Maye’s Preemption Argument
Maye’s preemption argument – one federal statute
preempting another – arguably invokes coram nobis
subject matter jurisdiction, thus surviving the procedural barriers. However, Maye’s argument fails.
Where other avenues of relief are available, a district court may consider coram nobis petitions only
when a petitioner presents sound reasons for failing to
seek relief earlier. Mills, 221 F.3d at 1204. By its nature, a jurisdictional error is of “such a fundamental
character as to render proceedings irregular and invalid.” Peter, 310 F.3d at 715 (quotation omitted).

App. 25
Maye’s argument that he
did not commit a crime fails.
The core of Maye’s argument is that his conduct
was not a crime under the charging statute, 18 U.S.C.
§ 1030. He sweeps all of his convictions under section
1030 and makes two main arguments: (1) what he did
was factually legal under United States v. Nosal, 676
F.3d 854 (9th Cir. 2012); and (2) as applied to his conduct, 18 U.S.C. § 2722 preempted § 1030(a)(2)(B) and,
therefore, his convictions are illegitimate. Both arguments fail.
Maye’s first factual argument is that his conduct
did not violate section 1030(a)(2)(B) because he was
acting in the course of his duties as a deputy. (See Case
no. 8:17-cv-1314-T-33MAP, Doc. 1 at 2, 3, 8, 9, 16, 19).
Maye argues that his defense at trial – that he accessed the databases within the scope of his duties as
a deputy – was true, notwithstanding the jury’s verdict
and the court’s repeated findings to the contrary. (See
id. at 2 [“No prosecutor or court has even suggested
that it (the statute) could apply in the context in which
it was applied here of [sic] a state law enforcement officer accessing a motor vehicle database during the
course of his duties as a police officer.”]).
However, the facts, proven at trial and found by
the jury, show that Maye’s conduct was well outside
the scope of his duties as a deputy. (See, e.g., 8:07-cv1258-T-30EAJ, Doc. 25 at 3-6 [facts section]; PSR
¶¶ 12-41). Maye, then a sworn law enforcement officer,
accessed a private, law enforcement database to

App. 26
endanger another or to profit. Id. A writ of error coram
nobis is an inappropriate vehicle to re-litigate Maye’s
failed trial defense.
Maye also bundles into his argument an irrelevant
and incorrect factual assertion about the nature of the
NCIC. Maye incorrectly asserts that the NCIC data
was public information. Here, Maye exceeded his access, authorized only for law enforcement purposes, to
the NCIC by abusing the system throughout the course
of the conspiracy. Maye offers no legal basis for his
claim that the information he accessed must be nonpublic for him to have committed a crime.
Maye is also wrong about NCIC data. This Court
need look no further than the indictment and warrant
in Maye’s criminal case to understand why Maye’s
NCIC assertions about warrants being public records
is incorrect. The indictment (Doc. cr-1) in Maye’s case
generated a warrant. (Doc. cr-10). The Indictment and
warrant were placed under seal. (Doc. cr-8). While
some warrant information is accessible to the public
(not through NCIC but typically by and through the
entering agency or court records), not all is (e.g., sealed
warrants in NCIC). (See Attachments B [affidavit from
NCIC] and C [affidavit from NCIC/FCIC].) The attachments to Maye’s own petition show that he is wrong
about the nature of NCIC. (See Doc. cv-1 at 53 (“Access
Constraints: restricting access to those with a need to
know to perform official duties.”); id. at 56 (“Data in
NCIC files is exchanged with and for the official use of
authorized officials of the Federal Government, the
States, cities, penal and other institutions, and certain

App. 27
foreign governments.”). Describing the warrant information as simply the existence of a warrant is a misnomer because, through NCIC, a warrant frequently
includes information about extradition; whether someone is considered armed and dangerous; whether warrant is temporary (an entry indicating that someone is
wanted by an agency but no formal arrest warrant has
been obtained yet); and even foreign warrants (Canadian). (See Criminal Justice “Hot” Files, United States
Department of Justice, National Institute of Justice
(Nov. 1986) (https://www.bjs.gov/content/pub/pdf/cjhf.pdf);
see also Doc. cv-1 at 54-55.)
In sum, Maye’s NCIC arguments reflect a misunderstanding of this critical law enforcement tool.
Maye also asserts that, based on Nosal, 676 F.3d
854, his conduct (as he describes it, not as the jury and
court found it) did not fall within the ambit of the
Computer Fraud and Abuse Act (CFAA), 18 U.S.C.
§ 1030. In Nosal, the Ninth Circuit held “that ‘exceeds
authorized access’ in the CFAA is limited to violations
of restrictions on access to information, and not restrictions on its use.” Other courts – including the
Eleventh Circuit, as Maye acknowledged in his petition for writ of certiorari in the § 2241 litigation, see
Maye v. Haynes, 2012 WL 3805776 – have split on the
meaning of exceeding authorization under the CFAA.
Maye was able to conduct searches in NCIC to determine if individuals had outstanding warrants, or if vehicles were reported stolen – information from a
federal database to which a layperson would not have
access. Whether Maye’s searches resulted in negative

App. 28
responses (i.e. ‘no records found’) is of no moment.
Maye’s search was not authorized because those negative responses confirmed information not publicly
available to a layperson. See, e.g., United States v.
DeLeon, 9 F.3d 1535, n.3 (1st Cir. 1993) (dicta) (“The
N.C.I.C. report contained only a single piece of (negative) information: it indicated that the handgun was
not listed as stolen property.”).
In 2010, the Eleventh Circuit joined other federal
circuits taking a broader view of the statute, holding
that when the employer had a policy limiting an employee’s computer access for business purposes, an employee who accessed a database for an improper
purpose exceeded authorized access. United States v.
Rodriguez, 628 F.3d 1258, 1263 (11th Cir. 2010); see
also Int’l Airport Ctrs., L.L.C. v. Citrin, 440 F.3d 418,
420-21 (7th Cir. 2006); United States v. John, 597 F.3d
263, 272 (5th Cir. 2010).
Maye’s conduct falls under the ambit of the CFAA
as interpreted by the Eleventh Circuit in Rodriguez,
supra. Maye’s conduct also fits under the narrower interpretations of the CFAA: while he corruptly used the
database information, Maye exceeded his authorized
access as part of the conspiracy, violating the restrictions on access to information. (See 8:07-cv-1258T-30EAJ, Doc. 25 at 3-6; see also PSR ¶¶ 13-41.)
Finally, Nosal does not overturn circuit precedent
that applied during Maye’s trial, direct appeal, or first
§ 2255 motion. If a claim relies on a case that was decided after the petitioner’s conviction and sentence

App. 29
became final, and the case is not retroactive, then the
petitioner “has not suffered such compelling injustice
that would deserve relief pursuant to a writ of error
coram nobis.” United States v. Swindall, 107 F.3d 831
(11th Cir. 1997); see also United States v. Williams, 158
F. App’x. 249 (11th Cir. 2005).
Maye’s argument, couched as a “legal” argument,
is an attempt to re-write established facts. Coram
nobis is not an opportunity to raise a new defense or,
as Maye does here, re-assert failed defenses. Maye’s argument is not meritorious and does not fit under the
rubric of coram nobis.
Section 2722(a) does not
preempt Section 1030(a)(2)(B)
Maye argues that by enacting section 2722(a),
Congress preempted section 1030(a)(2)(B) as applied
to Maye’s conduct and, therefore, Maye did not commit a federal crime. Maye bases his assertion on his
mistaken notion that, because his conduct could be
prosecuted under many different federal criminal
statutes, the section 1030 charges must, therefore, be
preempted. Most federal crimes are susceptible to
prosecution under any number of federal statutes.
That fact alone does not invoke preemption. Maye
must prove that a “positive repugnancy” exists between the two statutes to show preemption. United
States v. Tomeny, 144 F.3d 749, 752 (11th Cir. 1998)
(citing United States v. Batchelder, 442 U.S. 114, 12224 (1979)). Maye fails to meet that burden.

App. 30
Section 2722(a) applies only to certain motor vehicle records. Section 1030(a)(2)(B) applies to those
who intentionally access a computer without authorization, or exceed authorized access, and thereby obtain
information from any department or agency of the
United States, i.e., what Maye did. See, e.g., United
States v. Salum, 257 F. App’x. 225, 230 (11th Cir. 2007)
(explaining in affirming that, “by providing information from the NCIC database, [former police officer]
Salum exceeded his authority by accessing it for an improper purpose.”). Maye cites to nothing and offers
nothing to meet his burden to prove the “positive repugnancy.” There is none. Maye’s key claim – that section 1030(a)(2)(B) was preempted – fails even minimal
scrutiny.
CONCLUSION
A petition for writ of error coram nobis attacks errors of the most fundamental nature. Maye has neither
alleged one nor met his heavy burden to prove one.
Accordingly, the Court orders:
That Maye’s petition for writ of error coram nobis
is denied. The Clerk is directed to close this case.

App. 31
ORDERED at Tampa, Florida, on February 16,
2018.
/s/

Virginia M. Hernandez Covington
VIRGINIA M. HERNANDEZ COVINGTON
UNITED STATES DISTRICT JUDGE

Counsel of Record

APPENDIX C

App. 32
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
CHARLES DANIEL MAYE,
Petitioner,
v.
UNITED STATES
OF AMERICA,

Case No.
8:17-cv-1314-T-33MAP
8:04-cr-321-T-30-MAP

Respondent.
ORDER
(Filed May 23, 2018)
This cause is before the Court on Charles Daniel
Maye’s Rule 59(e) motion to alter the judgment (Doc.
20), and Maye’s Rule 52(a) and 52(b) request to remand
to the Magistrate Judge for evidentiary hearing. (Doc.
21). Maye is represented by retained counsel.
The Government responded to Maye’s motion to
alter judgment and motion for evidentiary hearing
(Docs. 23 and 24). Maye replied to the Government’s
response. (Doc. 29).
After review, Maye’s motion to alter the judgment
and request to remand to Magistrate Judge for evidentiary hearing must be denied.

App. 33
PROCEDURAL HISTORY
A jury found Maye guilty of counts one, two, four,
and five of the Superseding Indictment. Count one
charged Maye with conspiracy to access a computer
without authorization for private financial gain, in violation of 18 U.S.C. § 371. Count two charged Maye
with accessing a National Crime Information Center
(NCIC) computer without authorization, in violation of
18 U.S.C. §§ 1030(a)(2)(B) and (c)(2)(B) and (ii) and 18
U.S.C. § 2. Count four charged Maye with accessing an
NCIC computer without authorization in violation of
18 U.S.C. §§ 1030(a)(2)(B) and (c)(2)(B) and (ii) and 18
U.S.C. § 2. Count five charged May [sic] with making
false statements in violation of 18 U.S.C. § 1001(a)(2).
(Doc. cr-166).
On July 24, 2006, this Court sentenced Maye to 97
months incarceration and 36 months supervised release. The Court ordered Maye to pay a $15K fine. (Id.).
Maye filed a notice of appeal (Id. at 168), which he voluntarily dismissed. (Id. at 177). Maye also filed two 28
U.S.C. § 2255 motions to vacate, set aside or correct
sentence; a 28 U.S.C. § 2241 petition for writ of habeas
corpus challenging his conviction and sentence; and a
petition for writ of error coram nobis, none of which
gained Maye the relief he sought.
In his petition for coram nobis, Maye alleged that:
(1) he was factually innocent; (2) a Ninth Circuit case,
United States v. Nosal, 676 F.3d 854 (9th Cir. 2012),
applies to his conduct, contrary to binding Eleventh

App. 34
Circuit precedent; and (3) 18 U.S.C. § 2722 preempted
18 U.S.C. § 1030.
After review, the Court denied Maye’s coram nobis
petition, finding that Maye’s arguments failed because
he did not meet his procedural or substantive burdens,
and because he is factually and legally guilty.
Maye is now proceeding on his Rule 52 and Rule
59 motions, neither of which have merit.
MOTION TO ALTER OR AMEND JUDGMENT
Federal Rule of Civil Procedure 59(e) authorizes a
motion to alter or amend a judgment after its entry.
However “[t]he only grounds for granting [a Rule 59]
motion are newly-discovered evidence or manifest errors of law or fact.” In re Kellogg, 197 F.3d 1116, 1119
(11th Cir. 1999). At best, what Maye raises is an effort
to “re-re-relitigate” matters decided against him. However, “a Rule 59(e) motion [cannot be used] to relitigate
old matters, raise argument or present evidence that
could have been raised prior to the entry of judgment.”
Michael Linet, Inc. v. Village of Wellington, Fla., 40 F.3d
757, 763 (11th Cir. 2005). “This prohibition includes
new arguments that were ‘previously available, but not
pressed.’ ” Wilchombe v. TeeVee Toons, Inc., 555 F.3d
949, 957 (11th Cir. 2009) (quoting Stone v. Wall, 135
F.3d 1438, 1442 (11th Cir. 1998) (per curiam)). The
Court’s judgment against Maye’s petition for writ of error coram nobis contains no manifest errors of law or
fact and Maye presents no new evidence that could justify his proposed relief.

App. 35
Accordingly, Maye’s Rule 59(e) motion to alter or
amend the judgment will be denied.
REQUEST FOR REMAND
FOR EVIDENTIARY HEARING
Maye seeks to have this Court “remand” for an evidentiary hearing. Maye asks this Court to amend its
findings or to make additional findings by speculating
that an Office of Professional Responsibility report
“may have a bearing on the Court’s determination of
the issues presented by [his] petition.” Maye has not
met his burden to invoke Rule 52(b).
Discussion
Maye filed his motion seeking an evidentiary hearing pursuant to Rule 52(a)(5) and Rule 52(b) of the Federal Rules of Civil Procedure. Rule 52(a)(5) permits
Maye to “question the sufficiency of the evidence supporting [this Court’s] findings.” Fed. R. Civ. P. 52(a)(5).
Rule 52(b) allows Maye to file a motion within 28 days
after the entry of judgment to permit the Court to
amend its findings or to make additional findings. “The
purpose of Rule 52(b) is to allow the court to correct
plain errors of law or fact, or, in limited situations, to
allow the parties to present newly discovered evidence,
but not to allow the relitigation of old issues, a rehearing on the merits, or the presentation of new theories
of the case.” United States v. Davila, 749 F.3d 982, 99293 (11th Cir. 2014); Perez v. Renaissance Arts & Educ.,
Inc., 2014 WL 408334, at *1 (M.D. Fla., Feb. 3, 2014)

App. 36
(citing Hanover Ins. Co. v. Dolly Transp. Freight, Inc.,
2007 WL 170788, at * 2 (M.D. Fla., Jan. 18, 2007)). “A
party seeking to amend findings under Rule 52(b)
must show that the trial court’s findings of fact or conclusions of law are not supported by evidence in the
record.” Id.
Maye requests that the Magistrate Judge, on remand, review the report of the investigation (ROI) of
the Department of Justice that led to the termination
of former Assistant United States Attorney Jeffrey
DelFucco. That ROI was previously reviewed by a
Magistrate Judge in camera. (See Copy of Magistrate
Judge’s Report and Recommendation attached as Exhibit One to this Order.) Maye believes that ROI may
have a bearing on the Court’s determination of the issues presented in Maye’s coram nobis petition.
The Engberg FOIA Litigation
The United States Department of Justice’s Office
of Professional Responsibility (OPR) is tasked with investigating allegations of misconduct involving Department of Justice (DOJ) attorneys “that relate to the
exercise of their authority to investigate, litigate or
provide legal advice, as well as allegations of misconduct by law enforcement personnel when such allegations are related to allegations of attorney misconduct
within the jurisdiction of DOJ-OPR.” 28 C.F.R. § 0.39a(a)(1).
The OPR, if appropriate, reports its findings to the responsible Department official.

App. 37
In 2010, Engberg filed an action seeking disclosure
and release of the information contained in the ROI
that he alleged was improperly withheld. Engberg v.
Dep’t of Justice, No. 8:10-cv-01775-T-23MAP, 2011 WL
4502079, at *1 (M.D. Fla., Aug. 12, 2011). The Magistrate Judge found that the report was FOIA-exempt
and the Court granted summary judgment in favor of
the Department. Engberg v. United States Dep’t of Justice, 2011 WL 4501388 at *1 (M.D. Fla., Sept. 27, 2011)
(unpublished).
The ROI and Maye’s Speculative Allegations
“Where a party attempts to introduce previously
unsubmitted evidence on a motion to reconsider, the
court should not grant the motion absent some showing that the evidence was not available during the pendency of the motion.” Mays v. United States Postal
Serv., 122 F.3d 43, 46 (11th Cir. 1997). “On a motion for
reconsideration a party is ‘obliged to show not only
that this evidence was newly discovered or unknown
to it until after the hearing, but also that it could not
have discovered and produced such evidence.’ ” Id. at
n.6. Maye cannot show he could not have discovered
the FOIA litigation, particularly in light of the fact
that he did find it in the public docket.
Maye Fails To Meet his
Burden under Rule 59(e)
Reconsideration of a previous order is an extraordinary remedy to be employed sparingly. On a motion

App. 38
to reconsider a judgment, the moving party must set
forth facts or law of a strongly convincing nature to
induce the court to reverse its prior decision. Sussman
v. Salem, Saxon & Nielsen, P.A., 153 F.R.D. 689, 694
(M.D. Fla. 1994). Maye simply asserts that the “ROI
may have a bearing on the Court’s determination of the
issues presented by this petition.” (Doc. 21 at 1). Maye’s
speculative assumption about the content of the Report does not carry Maye’s burden to produce something of such a strongly convincing nature to induce
the Court take [sic] the extraordinary step of essentially re-opening the litigation on his petition.
In an affidavit filed by the Department in the case,
OPR FOIA Associate Counsel and Specialist Patricia
Reiersen declared under penalty of perjury:
I have reviewed Charles Daniel Maye’s Petition
for Writ of Error Coram Nobis; this Court’s Order denying the petition; and Maye’s request
for Remand for Evidentiary Hearing. . . . The
Report does not exculpate Charles Daniel
Maye. . . . The Report does not address the issues raised by Maye in the Petition and that
were addressed by the Court in its Order.
(See Declaration of Margaret McCarty attached as Exhibit Two to this Order.) Maye offers no legal basis for
the Court to remand for an evidentiary hearing based
on the OPR report. Maye has not explained how the
OPR Report could even be raised in this litigation.
Maye alleges no basis for concluding that there is a
nexus between the OPR report and the prosecution of

App. 39
his case. Maye does not meet his burden under Rule
52.
Accordingly, the Court orders:
That Maye’s motion to alter or amend the judgment (Doc. 20) and Maye’s request to remand for evidentiary hearing (Doc. 21) are denied.
ORDERED at Tampa, Florida, on May 23, 2018.
/s/

Counsel of Record

Virginia M.
Hernandez Covington
VIRGINIA M.
HERNANDEZ COVINGTON
UNITED STATES
DISTRICT JUDGE

APPENDIX D

App. 40
CIVIL NO. ___
RELATED CRIMINAL NUMBER
8:04-CR-321-T-30EAJ
IN THE
United States District Court
Middle District of Florida
Tampa Division
-----------------------------------------------------------------------

IN RE CHARLES DANIEL MAYE,
Petitioner
-----------------------------------------------------------------------

PETITION FOR WRIT OF ERROR CORAM NOBIS
-----------------------------------------------------------------------

(Filed Jun. 1, 2017)
WILLIAM MALLORY KENT
Counsel for Petitioner
Florida Bar No. 0260738
24 North Market Street,
Suite 300
Jacksonville, Florida 32202
904-398-8000
904-348-3124 FAX
kent@williamkent.com Email

App. 41
TABLE OF CONTENTS
Page
JURISDICTION .....................................................

1

STATEMENT OF FACTS AND PROCEDURAL
HISTORY MATERIAL TO THE ISSUE PRESENTED ..............................................................

4

ARGUMENT ...........................................................

19

MAYE IS ENTITLED TO A WRIT OF ERROR CORAM NOBIS ........................................................ 19
CONCLUSION .......................................................

28

TABLE OF AUTHORITIES
Cases

Page

Alikhani v. United States, 200 F.3d 732, 734
(11th Cir. 2000)........................................................21
Bousley v. United States, 523 U.S. 614, 620-21
(1998) .......................................................................23
Carlisle v. United States, 517 U.S. 416, 428
(1996) .......................................................................26
Cleveland v. United States, 531 U.S. 12 (2000) ..........23
Maye v. Haynes, 2011 U.S. Dist. LEXIS 65585
(S.D. GA.) .................................................................12
Maye v. United States, 8:10-cv-2327-T-30TBM ..........12
Maye v. United States, Case No. 8:07-CV-1258-T30EAJ ........................................................................5
Santos-Sanchez v. United States, 548 F.3d 327,
332 (5th Cir. 2008) .....................................................7

App. 42
Schriro v. Summerlin, 542 U.S. 348, 351-52
(2004) .......................................................................26
Sibron v. New York, 392 U.S. 40, 51 (1968) ................20
Spencer v. Kenma, 523 U.S. 1, 12 (1998) ....................20
United States v. Akinsade, 686 F.3d 248, 256 (4th
Cir. 2011) ...................................................................7
United States v. Christenson, 801 F.3d 971 (9th
Cir. 2015) ............................................... 13, 15, 19, 25
United States v. Cotton, 535 U.S. 625, 630 (2002).........21
United States v. Maye, 241 Fed. Appx. 638 (11th
Cir. 2007) .................................................................11
United States v. Mayer, 235 U.S. 55, 69 (1914) .... 20, 26
United States v. Mills, 221 F.3d 1201, 1204 (11th
Cir. 2000) ............................................................. 7, 20
United States v. Morgan, 346 U.S. 502, 507, 74
S. Ct. 247 (1954) .................................................. 1, 20
United States v. Nosal, 676 F.3d 854 (9th Cir.
2012) (en banc) .................................................. 13-15
United States v. Peter, 310 F.3d 709, 712 (11th
Cir. 2002) ......................................... 19, 20, 23, 26, 27
United States v. Salum, 257 Fed. Appx. 225 (11th
Cir. 2007) .................................................................12
United States v. Swindall, 107 F.3d 831, 834
(11th Cir. 1997)........................................................20
United States v. Tomeny, 144 F.3d 749, 751 (11th
Cir. 1998) ..................................................... 20, 21, 26
United States v. Valle, 807 F.3d 508 (2nd Cir.
2015) ............................................................ 16, 19, 26

App. 43
Statutes
18 U.S.C. § 1001(a)(2) ...................................................2
18 U.S.C. § 1030(a)(2)(B) ............... 2, 4, 9, 10, 12-14, 17
18 U.S.C. § 1030(e)(6) .............................................. 6, 10
18 U.S.C. § 1030(f ) ........................................ 6, 7, 10, 25
18 U.S.C. § 1341 ..........................................................23
18 U.S.C. § 2 ..................................................................5
18 U.S.C. § 2722(a) ................................ 3, 14, 15, 22, 25
18 U.S.C. § 371 ..............................................................4
28 U.S.C. § 1391(e)(1) ....................................................1
28 U.S.C. § 1651(a) ........................................................1
28 U.S.C. § 2241 .................................................. 2, 4, 12
28 U.S.C. § 2255 ............................................ 2, 4, 10, 11
28 U.S.C. § 2255(e) ........................................................2
Computer Fraud and Abuse Act
(“CFAA”) ............................... 2, 8, 9, 14, 17, 22, 25, 26
Court Rules
Fed.R.Civ.P. 60(d)(1) ...................................................12
Regulations
28 C.F.R. § 20.20(b)(1) & (5) ............... 3, 6, 7, 10, 15, 25
Other Authorities
Sen. Rep. 99-432 (1986) ................................................7

App. 44
[1] IN THE
United States District Court
Middle District of Florida
Tampa Division
-----------------------------------------------------------------------

IN RE CHARLES DANIEL MAYE,
Petitioner
-----------------------------------------------------------------------

PETITION FOR WRIT OF ERROR CORAM NOBIS
The petitioner, CHARLES DANIEL MAYE (sometimes hereinafter referred to as Petitioner, Defendant,
or “Maye”), respectfully prays that a writ of error
coram nobis issue to vacate his conviction in the case
of United States v. Charles Daniel Maye, United States
District Court for the Middle District of Florida, Tampa
Division, Case Number 8:04-cr-321.
JURISDICTION
This Court has jurisdiction under 28 U.S.C.
§ 1651(a). See United States v. Morgan, 346 U.S. 502,
507, 74 S. Ct. 247 (1954). Venue is properly laid in the
United States District Court, Middle District of Florida, under 28 U.S. Code § 1391(e)(1), because Maye was
convicted in this Court.
INTRODUCTION
Petitioner, a former Hillsborough County Deputy
Sheriff, was convicted in [2] 2006 for violating 18 U.S.C.

App. 45
§ 1030(a)(2)(B) of the Computer Fraud and Abuse Act
(“CFAA”). He was also convicted for violating 18 U.S.C.
§ 1001(a)(2) for making false claims to federal investigators where the CFAA was the matter under investigation that was within the jurisdiction of the United
States. He is no longer in custody. Therefore, 28 U.S.C.
§ 2255 is now inadequate to collaterally attack the
judgment.
Relief was previously unavailable because of a
misunderstanding of the scope of the CFAA, defense
counsel’s failure to conduct the most basic research,
and the complete lack of any authority even citing
§ 1030(a)(2)(B), much less interpreting its scope in this
context. However, since its enactment in 1984, no prosecutor or court has even suggested that it could apply
in the context in which it was applied here of a state
law enforcement officer accessing a motor vehicle database during the course of his duties of enforcing the
laws of the state. That fact makes it improbable that a
case in that context would ever reach the Supreme
Court to have made relief available under §§ 2241 &
2255(e), which makes coram nobis relief the only possible remedy to correct what is obviously a jurisdictional defect.
The convictions were based on allegations and
proof that the Petitioner used the Mobile Data Terminal (“MDT”) in his patrol vehicle to access the Florida
Department of Highway Safety and Motor Vehicles
(“DHSMV”) to obtain and [3] disclose information in
that database (consisting of addresses and the current
whereabouts of certain individuals) to his co-defendant.

App. 46
Because of that access, the DHSMV made an auto generated query (as it does whenever any state officer
accesses it during any traffic stop or license or tag verification) to ascertain if the person or vehicle queried
was wanted in another jurisdiction. His CFAA convictions and those dependent on the government’s theory
of their case should be vacated because Congress has
preempted that conduct in 18 U.S.C. § 2722(a), which
carries no jail time.1 That makes the indictment not to
have stated, and the trial not to have proved, a legitimate offense against the United States. In addition,
based on the conduct alleged and proved, Congress has
exempted the government’s jurisdictional basis for the
prosecution in 18 U.S.C. § 1030(f ) (“This section does
not prohibit any lawfully authorized investigative . . .
activity of a law enforcement agency of . . . a political
subdivision of a state . . . ”). The Attorney General has
exempted from regulation any information obtained by
accessing the Florida DHSMV. See 28 C.F.R. § 20.20(b)(1)
& (5). It includes, among other things, information contained in “(1) Posters, announcements, or lists for identifying or apprehending fugitives or wanted persons;
[and] (5) Records of traffic offenses maintained by state
departments of [4] transportation, motor vehicles or
the equivalent thereof for the purpose of regulating the
issuance, suspension, revocation, or renewal of drivers,
pilots or other operators licenses.” Finally, two appellate courts have recently held that § 1030(a)(2)(B) does
not reach the conduct alleged and proved in this case.
1

“A person who knowingly violates this chapter shall be
fined under this title.” 18 U.S.C. § 2723(a).

App. 47
Since the government waived its right to seek certiorari
review of those cases decided against it, tacitly agreeing
with the result, the Court should consider them a correct interpretation of the scope of § 1030(a)(2)(B) for
purposes of coram nobis relief. If the government had
sought review, relief would have been required under
any analysis under 28 U.S.C. §§ 2241 & 2255(e) while
the Petitioner was in custody.
STATEMENT OF FACTS AND
PROCEDURAL HISTORY MATERIAL
TO THE ISSUE PRESENTED
The charges. Petitioner was named, along with
Leroy Collins, in a five count superseding indictment
on December 16, 2004. The trial court construed the
lengthy indictment to charge the Petitioner with the
following crimes:
Count One: conspiracy to intentionally access
a computer without authorization and in excess of authorization, to obtain information
from a department or agency of the United
States, for the purpose of private gain and in
furtherance of criminal acts of extortion in violation of 18 U.S.C. § 1030(a)(2)(B) and knowingly and willfully making false statements
to an FBI agent in violation of 18 U.S.C.
§ 1001(a)(2) all in violation of 18 U.S.C. § 371;
Counts Two and Four: intentionally accessing
a computer—the NCIC computer database—
without authorization and in excess of authorization, to obtain information from a department or agency of the United States, for the

App. 48
purpose of private [5] financial gain and in
furtherance of criminal acts of extortion in violation of 18 U.S.C. § 1030(a)(2)(B)(i) and (ii)
and 18 U.S.C. § 2; and Count Five: knowingly
and willfully making false statements during
an interview with a Special Agent of the FBI,
in violation of 18 U.S.C. § 1001(a)(2).
Maye v. United States, Case No. 8:07-CV-1258-T30EAJ.2
The substantive and false claims counts merely
tracked the language of § 1030(a)(2)(B), without stating how the NCIC was accessed or what information
was obtained. Count One contained several sections
stating the government’s theory of its case, which was
that the Petitioner did so from the MDT in his patrol
vehicle. However, it made no claim that he had any
program to access any protected file within the NCIC
database. Nor that he hacked into any such file.
Another section of Count One had 40 overt acts
that were descriptions of traffic stops or license tag verifications that included the substantive violations alleged in Counts Two, Four and Five, half of which were
conducted by other officers. However, none alleged
that the Petitioner hacked into any protected file in
the NCIC database, that he obtained any protected

2

The superseding indictment was filed as Cr. Dkt. #6 and is
appended to this petition as Exhibit A because the post conviction
court’s characterization of the charges does not adequately or
completely describe their nature or the government’s theory of its
case as to how it believed the CFAA was violated.

App. 49
information from the NCIC, or that he or his MDT had
the capability to do so.
[6] Pretrial proceedings. The defendants requested
and received three continuances: two by the Petitioner
and one by Collins. Notably, defense counsel’s first request was styled as an “emergency motion” in which he
stated: “In order to render effective assistance of counsel to Mr. Maye, it is absolutely imperative that the
undersigned understand the intricacies of the data
system of the NCIC and the FCIC and the Hillsborough County Sheriffs Office.” Cr. Dkt. #48.
As this petition demonstrates, defense counsel did
absolutely no research or investigation to understand
the scope of the statute or the intricacies of the data
systems involved, which in his own words, rendered his
assistance ineffective. Merely reading the full text of
the statute would have led him to § 1030(e)(6), which
interprets exceeds authorized access as having used
authorized access to obtain information that one is not
entitled to obtain. According to the government’s evidence, the only information the Defendant did or could
have obtained from the NCIC was whether the person
or vehicle queried in the DHSMV database was wanted
in another jurisdiction, which is information that is not
private and that any other citizen is entitled to obtain.
It would also have led him to § 1030(f ), which exempted the government’s jurisdictional basis for the
prosecution. Even the most basic, cursory research
would have led counsel to 28 C.F.R. § 20.20(b) in which
the Attorney General exempted from regulation the
only information that could have been obtained [7]

App. 50
from the NCIC by an auto generated query by the
DHSMV of whether a person or vehicle was wanted in
another jurisdiction. A mere Google search of the NCIC,
would have led him to the FBI’s own website explaining the information available, which would have shown
that only information exempted by 18 U.S.C. § 1030(f )
and 28 C.F.R. § 20.20(b) could have been obtained
without a special program not available from an MDT.3
A review of the legislative history would have shown
that Congress did not intend the statute to cover information in state or local databases. See Sen. Rep. 99432 (1986).
Ineffective assistance of counsel can form the legal
basis for coram nobis relief if counsel’s deficient performance caused a fundamental error. United States v.
Akinsade, 686 F.3d 248, 256 (4th Cir. 2011) (In meeting his burden under Strickland, Akinsade “has also
demonstrated that he has suffered a fundamental error necessitating coram nobis relief.”); Santos-Sanchez
v. United States, 548 F.3d 327, 332 (5th Cir. 2008)
(“[I]neffective assistance of counsel is an error that can
warrant coram nobis relief.”). See also United States v.
Mills, 221 F.3d 1201, 1204 (11th Cir. 2000) (“[C]ourts
may consider coram nobis relief only if . . . the Petitioner presents sound reasons for failing to seek relief
earlier.”) The record supports that legal basis [8] for
relief. Defense counsel by his own words had to (but did
not) conduct a constitutionally required investigation
3

See attached information from the FBI’s website explaining
the data systems of the NCIC and which files are retrieved and
which are not, appended as Exhibit B.

App. 51
into the intricacies of the databases involved and how
(or even if ) they were covered by the CFAA. If he had
done so, the trial court would have been required to
find that the scope of the CFAA did not reach the conduct alleged or proved.4 The Petitioner was unable
to vindicate the jurisdictional claim raised herein
while he was in custody because of the trial court’s misunderstanding of the scope of the CFAA. It was improperly influenced by the government’s continued
misrepresentations into the post conviction proceedings that the Petitioner accessed the NCIC and that its
scope reached the conduct alleged and proved of only
obtaining information from the NCIC that the person
or vehicle queried by the DHSMV was not wanted in
another jurisdiction.
The trial. The government’s evidence was that the
only database that was (or even could have been) accessed was the DHSMV via an auto generated query to
what they called the “hot files” to ascertain if the person or vehicle queried was wanted. There was no testimony that the MDT had the capability of hacking into
any [9] protected file of the NCIC. The government’s
witness from the NCIC, Jane McCully, testified that
the only file that was accessed by the auto generated
query was the unprotected files that only ascertained
4

It was not until Congress enacted the Driver’s Privacy Protection Act, 18 U.S.C. § 2721, et seq., that information in a state’s
database became protected under federal law and the conduct alleged and proved at the trial became a federal crime. It was enacted as part of the Violent Crime Control and Law Enforcement
Act of 1984 to close what it saw as a “loophole in the law.” See
Margan v. Niles, 250 F. Supp. 2d 63, 68-69 (N.D.N.Y. 2003).

App. 52
whether the person or vehicle queried was wanted in
another jurisdiction; and each time, the only information provided was no want or record found.5
The Defendant did not contest the element that he
accessed a computer, nor did he contest the element of
obtaining information from that computer, in as much
as he accessed the MDT in his patrol vehicle and obtained information from that access. However, one of
the addresses was a P.O. Box and another was not correct; and therefore, of no use to anyone. His defense
was that every query to the Florida DHSMV was lawfully authorized investigative activity required by his
duties as a deputy sheriff based on reasonable suspicion or probable cause of a violation of the laws of Florida. He denied that he disclosed any information to
Leroy Collins, nor did any witness offer any testimony
that supported that allegation, although it is not even
an element of § 1030(a)(2)(B).
Counsel did not request, nor was the jury given,
an instruction that it could acquit if it believed that the
conduct was exempted from the scope of the CFAA by
[10] 18 U.S.C. § 1030(f ) and 28 C.F.R. § 20.20(b). Aside
from the language of the statute, the only explanatory
definition given was that of exceeding authorized access found in § 1030(e)(6). The jury was not given instructions on the definition of “information” or “agency”
of the United States to determine if what he obtained
violated the statute. Nor was the jury instructed that
5

See excerpts of testimony of Jane McCully from the NCIC,
appended as Exhibit C.

App. 53
he was not entitled to obtain information concerning
whether a person or vehicle was wanted in another jurisdiction.6 (Cr. Dkt. #124, #147)
Postconviction proceedings. The Defendant filed a
timely notice of appeal. However, he dismissed it upon
advice of counsel that he had no appealable issues
and that he would complete his sentence before any
appeal would be decided.7 That advice should have
been ineffective because, at the minimum, the indictment alleging that the Defendant accessed and obtained protected information from the NCIC and its
proof at trial that he only accessed the DHSMV database constituted a constructive amendment of the indictment. At that time, no appellate court had even cited,
much less interpreted, the scope of § 1030(a)(2)(B). Furthermore, no attorney rendering [11] reasonably effective assistance would have told his client that he would
complete a 97 month sentence before an appeal would
be resolved.
Leroy Collins did pursue an appeal. United States
v. Maye, 241 Fed. Appx. 638 (11th Cir. 2007). However,
for some unknown reason, the testimony of the most
important witness in the trial, Jane McCully from the
NCIC was not transcribed (Cr. Dkt. #218), which was
6

See excerpts from charging conference and jury instructions, appended as Exhibit D.
7
Counsel’s advice not to appeal was witnessed by members
of the Defendant’s family, one of which was an attorney. Affidavits of the substance of that advice are in the record because they
were filed in support of the claim in the 28 U.S.C. § 2255 motion
that it constituted ineffective assistance of counsel.

App. 54
critical to the fact of whether any protected information was obtained from her agency, despite it being
ordered by his attorneys. Consequently, Collins could
not have raised the jurisdictional issue raised herein,
nor could the appellate court have done so on their own
motion as they are required to do whenever any jurisdictional defect is apparent from the face of the record.
Her testimony was transcribed by the Petitioner at his
expense after the § 2255 proceeding had concluded.
The Petitioner’s § 2255 motion raised three grounds
of ineffective assistance of counsel related to the jurisdictional claim raised herein. Ground Five alleged, in
part, that counsel failed to investigate and call key witnesses, one of which was any sheriff deputy who could
have testified that what the government was claiming
was impossible from an MDT in a patrol vehicle.
Ground Eight alleged that the Petitioner was actually
innocent of the allegation that he provided any information to Leroy [12] Collins.8 Ground Nine alleged
that counsel was ineffective in advising that there
were no appealable issues after trial. All were dismissed without a hearing based on the trial court’s
mistaken belief that the conduct proved was within the
scope of § 1030(a)(2)(B).
The Petitioner then filed several motions and petitions where he raised in some form the jurisdictional
issue raised herein. All were found to be procedurally
8

This claim was supported by a polygraph test given by an
examiner approved by the FBI, who concluded that the Defendant
was truthful and innocent of the allegations. (Cr. Dkt. #161)

App. 55
defaulted based on the dismissal of the § 2255 motion.
He filed a motion challenging the trial court’s subject
matter jurisdiction. He filed a complaint styled as
an independent action in equity under Fed.R.Civ.P.
60(d)(1) seeking to reopen the § 2255 proceeding. Maye
v. United States, 8:10-cv-2327-T-30TBM; 2010 U.S.
Dist. LEXIS 118251. He filed a petition in the district
of his confinement under 28 U.S.C. §§ 2241 & 2255(e).
It was based on the ground that the holdings in United
States v. Salum, 257 Fed. Appx. 225 (11th Cir. 2007)
and United States v. Rodriguez, 628 F.3d 628 (11th Cir.
2010) made him innocent because he obtained no information from any federal database. Maye v. Haynes,
2011 U.S. Dist. LEXIS 65585 (S.D. GA.). Finally, he
filed a motion alleging that his due process rights were
violated at the trial and in the § 2255 proceedings. It
was based on the grounds that the government falsely
[13] represented to both courts that he accessed the
NCIC from the MDT in his patrol vehicle when they
knew that it was impossible to do so and that the
conduct alleged and proven had been preempted by
Congress in § 2722(a). Maye v. United States, 8:13-cv3104-T-30EAJ; 2014 U.S. LEXIS 2485.
The supervening decisions. The first published
case in which a law enforcement officer was charged
under § 1030(a)(2)(B) was United States v. Christenson, 801 F.3d 971 (9th Cir. 2015). However, that fact is
where the similarity with the facts of this case ends.
The facts involved a widespread criminal enterprise
offering illegal private investigation services in Southern California. The owner bribed Los Angeles area

App. 56
police officers for access to confidential law enforcement databases. In direct contrast, the Defendant here
only had access to the DHSMV from the MDT in his
patrol vehicle.
The court vacated the CFAA and related convictions based on United States v. Nosal, 676 F.3d 854 (9th
Cir. 2012) (en banc), which was decided after the convictions. Nosal held the term “exceeds authorized access” to be “limited to violations of restrictions on
access to information, and not restrictions on its use.”
Id. at 864. The jury instructions were similar to those
in this case, which the court held “was flawed in that it
allowed the jury to convict for unauthorized use of information rather than only for unauthorized access.”
Christenson, 801 F.3d at 922. The court [14] held that
under Nosal, the government was required to prove,
and the jury instructed that it had to find, that the defendant “accessed any databases that she was not authorized to access in the course of her job.” Id. It further
held that, “Congress has created other statutes under
which a government employee who abuses his database privileges may be punished, but it did not intend
to expand the scope of the federal antihacking statute.”
Id. (citing Nosal, 676 F.3d at 857 & n. 3) (“refusing to
‘transform the CFAA from an anti-hacking statute into
an expansive misappropriation statute,’ and citing another statute restricting the use of information under
which a defendant might properly be charged.”)
This petition does not challenge flawed jury instructions on the definition of exceeding authorized
access that only became apparent after conviction.

App. 57
Christenson held that the conduct alleged and proved
did not fall within the scope of § 1030(a)(2)(B), but that
it did fall within the scope of a state statute similar to
the wording in 18 U.S.C. § 2722(a), in which the defendants were charged as a predicate for the racketeering charge. It provides that:
(c) Except as provided in subdivision (h), any
person who commits any of the following acts
is guilty of a public offense . . . (2) knowingly
accesses and without permission takes, copies, or makes use of any data from a computer,
computer system, or computer network, or
takes or copies any supporting documentation, whether existing or residing internal or
external to a computer, computer system, or
computer network.
[15] Subdivision (h) exempts “acts which are
committed by a person within the scope of his
or her lawful employment.” Cal. Penal Code
§ 502(h)(1). For purposes of this section, a person acts within the scope of his or her employment when he or she performs acts which are
reasonably necessary to the performance of
his or her work assignment.” Id. Defendants
do not argue that [they] were acting within
the scope of their employment. Had they made
this argument, we would have rejected it. Neither [of their] database searches were necessary for the performance of any legitimate
work assignment.
Christenson, 801 F.3d at 895 & n. 8.

App. 58
Except for the element of information in a DMV
database, which is exempted by 28 C.F.R. § 20.20(b)(5),
the California statute and the statute in which Congress preempted the conduct alleged in this case are
identical in that they prohibit unauthorized use or disclosure of information. It provides in pertinent part:
Procurement for unlawful purpose. It shall be
unlawful for any person knowingly to obtain
or disclose personal information, from a motor
vehicle record, for any use not permitted under § 2721(b) of this title.
18 U.S.C. § 2722(a).
The defendants in Christenson argued that the
court should interpret the California statute consistent
with the federal statute as interpreted in Nosal, which
would have precluded its use as a predicate offense.
The court disagreed because the “statutes are different.” 801 F.3d at 994 (The state statute’s “focus is on
unauthorized taking or use of information. In contrast,
the CFAA criminalizes unauthorized access, not subsequent unauthorized use.’’) (Nosal, 676 F.3d at 865).
[16] United States v. Valle, 807 F.3d 508 (2nd Cir.
2015) was the first published case in which the government charged that a local police officer violated
§ 1030(a)(2)(B) from the MDT in his patrol vehicle.
However, as in Christenson, that is where the similarity to the facts of this case ends. The undisputed facts
were that Valle entered a name into a federal database
from the MDT in his patrol vehicle with no legitimate
law enforcement purpose. He could do so because, as a

App. 59
NYPD officer, he had access to the Onmixx Force Mobile (“OFM”), a computer program that allowed him to
search various restricted databases, including the restricted files of the NCIC, which contains sensitive information about individuals such as home addresses
and dates of birth. It was undisputed that the NYPD
policy, known to Valle, was that he could only access
those databases in the course of an officer’s official duties and that accessing them for personal use violated
department rules.
In direct contrast to the facts here, the Petitioner
had no access to the restricted files of the NCIC
through any program like OFM and that his defense
was that he had a legitimate law enforcement purpose
for accessing the DHSMV. Implicit in the opinion was
the fact that the statute would not even apply if access
was for a law enforcement purpose because it stated
that the dispositive question is whether Valle “exceeded authorized access” when he used his access to
OFM to conduct a search for Maureen Hartigun with
no law enforcement purpose. Here, the government
[17] actually alleged in the overt acts that the Defendant had a law enforcement purpose of making traffic
stops and verifying license tags, but that he obtained
information from the DHSMV during that access and
then disclosed it to Collins. After analyzing the interpretation of the CFAA by other circuits and its legislative history, it concluded that, under the rule of lenity,
the statute should not apply in a way that covered information that must be disclosed to any member of the
public upon request. Nor should it apply in a way that

App. 60
would criminalize the conduct of millions of ordinary
computer users, and place it in the position of a legislature. Here, the only information obtained from the
NCIC was whether a person or vehicle was wanted in
another jurisdiction, which is information that would
be available to any person upon request. Applying it in
that context would make every traffic stop and tag verification a violation of § 1030(a)(2)(B).
After Christenson and Valle were decided without
the Government filing a petition for a writ of certiorari, the Supreme Court interpreted the definition in
§ 1030(e)(6) in a way that would ratify their reasoning
and deprive the trial court of jurisdiction:
The statute thus provides two ways of committing the crime . . . (1) obtaining access
without authorization, and (2) obtaining access without authorization but then using
that access improperly.
Musacchio v. United States, 136 S.Ct. 709, 713 (2016).
[18] Here, there was no allegation or proof that the
Petitioner was not authorized to access the Hot Files
of NCIC, not that he accepted any information from
NCIC that he was not entitled to obtain or that he used
that access improperly.
[19] ARGUMENT
MAYE IS ENTITLED TO A WRIT OF ERROR
CORAM NOBIS

App. 61
A WRIT OF ERROR CORAM NOBIS SHOULD ISSUE TO VACATE THE CONVICTIONS WHICH
WERE BASED ON CONDUCT THAT IS NOT A
CRIME UNDER THE CHARGED STATUTE AND
FAILS TO PROVE A LEGITIMATE OFFENSE
AGAINST THE UNITED STATES
Although the Petitioner has already served his
sentence, Christenson, Valle and Mussachio [sic] have
now made clear what he has argued all along in his pro
se filings: that the CFAA charges and the false claim
charges dependent on them were defective, because
the conduct alleged and proved was outside the ambit
of the statute. As previously pled above, there was no
allegation or proof that the Petitioner was not authorized to access the Hot Files of NCIC, nor that he accessed any information from NCIC that he or any other
officer was not only entitled but required to obtain during a traffic stop or license plate check, or that he used
that access improperly. Because he was convicted of accessing the DHSMV and obtaining information from
the NCIC that not only he and any other citizen was
entitled to obtain, he was convicted in error. Moreover,
that error—a conviction based on allegations that do
not state a legitimate offense or for conduct that is not
a crime under the statute charged—is so fundamental
that, under established Eleventh Circuit case law, the
district court lacked the power to convict and punish
for that conduct. See United [20] States v. Peter, 310
F.3d 709, 712 (11th Cir. 2002); United States v. Tomeny,
144 F.3d 749, 751 (11th Cir. 1998). As a result, he is entitled to retroactive relief from the remaining consequences

App. 62
of those convictions, even though that sentence has
been served. Because “a writ of error coram nobis must
issue to correct the judgment that the court never had
the power to enter,” Peter, 310 F.3d at 716, the Petitioner requests that this Court issue such a writ and
vacate his 2006 CFAA and false claims convictions.
The writ of error coram nobis is an extraordinary
writ designed to correct fundamental injustices. Mills,
221 F.3d at 1203 (citing United States v. Swindall, 107
F.3d 831, 834 (11th Cir. 1997)). To that end, the writ
has been “allowed without limitation of time for facts
that affect the ‘validity and regularity’ of the judgment.”9 Morgan, 346 U.S. at 507.
Through the writ of error coram nobis, “the law
recognizes that there must be a vehicle to correct errors ‘of the most fundamental character; that is, such
as rendered the proceeding itself irregular and invalid.’ ” Peter, 310 F.3d at 712 (citing Morgan, 346 U.S. at
509 n. 15 (quoting United States v. Mayer, 235 U.S. 55,
69 (1914))); Mills, 221 F.3d at 1204. One such fundamental error is an absence of jurisdiction. [21] Peter,
310 F.3d at 712; Alikhani v. United States, 200 F.3d
732,734 (11th Cir. 2000) (rejecting defendant’s arguments that his statutory claims are jurisdictional but
noting that “[a] genuine claim that the district court
lacked jurisdiction to adjudicate the petitioner guilty
may well be a proper ground for coram nobis relief as
9

There is a “presumption of significant collateral consequences
arising from a criminal conviction.” Spencer v. Kenma, 523 U.S.
1, 12 (1998) (citing Sibron v. New York, 392 U.S. 40, 51 (1968)).

App. 63
a matter of law.”); Tomeny, 144 F.3d at 751) (holding
statutory argument that Congress has preempted conduct in another statute to be a jurisdictional claim). A
jurisdictional defect implicates “the court’s statutory
or constitutional power to adjudicate the case.” United
States v. Cotton, 535 U.S. 625, 630 (2002) (emphasis in
original).
The Eleventh Circuit held that when Congress has
preempted the conduct alleged or prosecuted in another section of the U.S. Code that the government has
failed to allege or prove a legitimate offense against
the United States. Tomeny, 144 F.3d at 751. The claim
is jurisdictional and cannot be procedurally defaulted.
Id. Analyzing a preemption argument is a two step
approach. The first step is to determine whether the
language of the statutes themselves demonstrates
Congress’s intent that “one statute preempts another.”
Id. at 752. If the statutory language does not demand
a finding of preemption, then a court must determine
whether the legislative history shows “clear and manifest” evidence of Congress’s intent that one statute
preempts another. Id. Preemption occurs when a specific statute would be rendered superfluous and robbed
of all practical effect. Id. at 754. It is also [22] appropriate where Congress “would not have intended to allow a prosecution under the general provision, where
prosecution under the specific provision was appropriate.” Id. at n. 10.
The plain language of the statutes manifests Congress’s intent that § 2722(a) preempts § 1030(a)(2)(B)
when the subject matter is an allegation and proof that

App. 64
a defendant obtained or disclosed information in a
state motor vehicle database. The former makes it unlawful for any person knowingly to obtain or disclose
personal information, from a motor vehicle record, for
any use not permitted under § 2721 of that title. The
latter makes it unlawful to intentionally access a computer without authorization or to exceed authorized
access, and thereby obtain information from any department or agency of the United States. The Florida
DHSMV is not a department or agency of the United
States, but it is a database for motor vehicle records.
However, if that plain statutory language does not demand a finding of preemption, the legislative history of
the statute clearly and unequivocally manifests Congress’s intent of preemption because it states that it
does not cover information in state and local databases. If, as was the government’s theory in this case
which was ratified by the trial and § 2255 courts, the
CFAA can be violated by a law enforcement officer accessing his state’s DMV database, it would render
§ 2722(a) superfluous and robbed of all practical effect.
More importantly, there would have been no need for
[23] Congress to enact it because every time any state
law enforcement officer accesses his state DMV database by merely verifying a license tag or writing a traffic citation, an auto generated query is always made to
NCIC to ascertain if the person or vehicle queried is
wanted in another jurisdiction.
The Eleventh Circuit held that when the Supreme
Court defines a federal criminal statute to exclude the

App. 65
conduct upon which a conviction is based, there is a
fatal jurisdictional defect, and “a writ of error coram
nobis must issue to correct the judgment that the court
never had power to enter.” Peter, 310 F.3d at 716. In
Peter, the defendant had pled guilty based on his admissions that he committed mail fraud under 18 U.S.C.
§ 1341 when he mailed applications for alcoholic beverage licenses with misrepresentations. Peter, 310 F.3d
at 711. Four years later, the Supreme Court held in
Cleveland v. United States, 531 U.S. 12 (2000), that
“[s]tate and municipal licenses in general . . . do not
rank as ‘property’ for purposes of § 1341, in the hands
of official licensors.” Peter, 310 F.3d at 711. Peter held
that “[d]ecisions construing substantive federal criminal statutes must be given retroactive effect” and
voided Peter’s conviction under Cleveland. Peter, 310
F.3d at 711 (citing Bousley v. United States, 523 U.S.
614, 620-21 (1998)). A court that convicts and sentences a defendant for conduct that is not a crime lacks
jurisdiction, and “the conviction and sentence are void
from their inception and remain void long after a defendant has fully suffered [24] their direct force.” Peter,
310 F.3d at 715. Because the Supreme Court had
defined the statute in a way that rendered Peter’s conduct non-criminal, the district court was without legitimate authority or jurisdiction to enter a judgment of
conviction for that conduct, and a writ of error coram
nobis had to issue in order to correct the miscarriage
of justice.

App. 66
The Petitioner’s case is exactly of the same character. He was convicted for conduct that was not a violation of the CFAA. Counts Two and Four charged him
with substantive violations of the CFAA, Count Five
charged him with making false statements to the FBI
about whether he violated the CFAA, and Count One
charged him with a conspiracy to violate those statutes
based on overt acts describing conduct involving traffic
stops, license and vehicle tag verifications and allegations that he disclosed information he learned to Leroy
Collins, which Congress had preempted in § 2722(a)
and exempted in § 1030(f). The Attorney General found
those circumstances inapplicable to the regulations governing the FBI/NCIC systems. 28 C.F.R. § 20.20(b)(1)
& (5). It is undoubtedly an investigative function of the
DHSMV to ascertain if a person or vehicle is wanted in
another jurisdiction.
Without any jury instructions defining department or agency and what information the Defendant
was not entitled to obtain (Cr. Dkt. #127), the jury relied on the prosecution’s theory that merely accessing
the DHSMV for any reason violated [25] the CFAA.
Under those circumstances, a writ of error coram nobis
should issue to relieve the Petitioner of the continuing
consequences of his decade old convictions. Four cases,
the plain language of the statute itself, its legislative
history, its motivating policies and the Attorney General’s exemptions make his entitlement to coram nobis
relief clear. The Ninth Circuit’s decision in Christenson, and the Second Circuit’s decision in Valle confirms

App. 67
what the Petitioner begged the courts to recognize inartfully in his § 2255 motion and in each succeeding
post judgment motion—that accessing the DHSMV
during a traffic stop or license verification did not violate the CFAA under any interpretation. Peter reversed the denial of a petition for a writ of error coram
nobis under facts virtually identical to those here and
Tomeny would have granted relief under those facts.
“Decisions construing substantive federal criminal
statutes must be given retroactive effect,” Peter, 310
F.3d at 711, because any alternative approach would
“ ‘necessarily carry a significant risk that a defendant
stays convicted of an act that the law does not make
criminal.’ ” Schriro v. Summerlin, 542 U.S. 348, 351-52
(2004) (citing Bousley, 523 U.S. at 620)). That is the
case here. The Petitioner is, was, and always has been
factually innocent of the CFAA, properly defined. He
was convicted of “a specific course of conduct that is
outside the reach of the [CFAA].” Peter, 310 F.3d at 715.
As a result, his conviction represents an error that is
“material to the validity and regularity of the legal proceeding itself.” [26] Carlisle v. United States, 517 U.S.
416, 428 (1996) (citing Mayer, 235 U.S. at 67-68). The
district court lacked jurisdiction to punish him for the
non-existent crime of which he was convicted under
§ 1030(a)(2)(B), and he is therefore entitled to coram
nobis relief to void those convictions and any dependent on them.
Finally, since this petition raises a jurisdictional
claim, it is irrelevant that the Petitioner previously attacked his convictions under § 2255 or raised similar

App. 68
claims in post judgment motions. The former was dismissed because he failed to particularize his jurisdictional claims as an attorney would and the latter
because they were successive. “Since jurisdictional error implicates a court’s power to adjudicate the matter
before it, such error can never be waived by the
parties to litigation. In other words, the doctrine of procedural default does not apply.” Peter, 310 F.3d at 713.
If a conviction obtained without jurisdiction is void,” as
Peter held, 310F.3d at 715, there can be no procedural
bar.10
[27] CONCLUSION
Petitioner CHARLES DANIEL MAYE respectfully
requests this Honorable Court grant his petition for a
writ of error coram nobis. The judgment and convictions should be set aside and vacated pursuant to the
wnt [sic] of error coram nobis because the government

10

To the extent the Court or Government were to find any
procedural bar, we would respectfully request the Court and Government consider the letter from attorney Peter J. Toren, attached hereto as Exhibit E, and the arguments made therein as a
basis for waiving any remaining procedural bar.

App. 69
did not allege nor prove a legitimate offense against
the United States.
Respectfully submitted,
THE LAW OFFICE OF
WILLIAM MALLORY KENT
s/ William Mallory Kent
William Mallory Kent
Florida Bar No. 0260738
24 North Market Street,
Suite 300
Jacksonville, Florida 32202
904-398-8000
904-348-3124 FAX
904-662-4419 Cell Phone
kent@williamkent.com Email
[28] [Certificate Of Service Omitted]

APPENDIX E

App. 70
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
CHARLES DANIEL MAYE
vs.
UNITED STATES
OF AMERICA

Case No: 8:17-cv1314-VMC-MAP
/

MOTION TO AMEND FINDINGS AND
TO ALTER OR AMEND THE JUDGMENT
(Filed Mar. 16, 2018)
Comes now the Petitioner, CHARLES DANIEL
MAYE (“Maye”), by and through the undersigned counsel, pursuant to Rule 59, Federal Rules of Criminal
Procedure, to move this Honorable Court to amend the
findings and to alter or amend the order (doc. 19) entered on February 16, 2018 to correct the following
manifest errors of law and fact:
1. On pages 2-3, line 22 the Order says NCIC and
FCIC contain private information including home addresses. The trial evidence given by the NCIC witness
does not support that.
2. On pages 9-10 the Order states that as part of
the conspiracy in July of 1999, Maye also accessed the
NCIC and the FCIC databases to acquire restricted or
private information on Collins’ former girlfriends Angeletta Hill and Benavidez Williams. That event occurred on 07/30/1999 while Maye was on duty assigned

App. 71
to patrol in a High Crime Area where stolen and abandoned vehicles are often recovered. HCSO Reserve
Deputy, Barry Canon [sic] was working with Maye and
was driving Maye’s assigned patrol car. The mobile digital terminal, (MDT) was facing Deputy Cannon. Deputy Cannon and Maye located a vehicle parked with no
driver on the scene. They noted that the Florida tag
attached to this vehicle had been expired for four
months. Deputy Cannon entered this tag number into
the State of Florida’s DHMSV [sic] database utilizing
specific commands on the MDT that access only the
DHSMV database. That database auto-generates a
query to FCIC, and FCIC, auto generates a query to
the “Hot File” database of NCIC, which is not a protected file and contains no protected information, the
return reply stated “no hits and no record”. They then
ran the registered owner’s name and it came back with
Ms. Williams and an old address—not where the Court
alleged that Maye went with Collins and his son to
take Williams’ Truck. The information to verify Maye’s
statement is located in this action in Document 1 Exhibit C, pp. 97-98 and case number 8:10-cv-02327-JSMTBM, Document 1, p. 17-18, and its appended exhibits
A-J.
3. On page 10 the Order states that in August of
2003 Maye searched the NCIC and FCIC to acquire restricted or private information about one of Collins’ former girlfriends, Veronica Smith. Maye initiated a
query on Veronica Smith on August 11, 2003. Veronica
Smith had stolen and forged checks on Mr. Collins. Mr.
Collins had been alerted by his bank and was told to

App. 72
make a report with law enforcement. He called Maye
and asked where he could go to report this crime. Maye
contacted his supervisor, Mike Willette, to see if Collins
could come to the HCSO office to make a report and
was advised that he could make the report at Maye’s
office but to another deputy. Collins did not have
Smith’s date of birth but he had a tag number on a car
he had bought for her. Maye ran this tag number in
the Florida DHSMV database. That database autogenerated a query to FCIC and a query to the Hot Files
of NCIC which does not contain private or restricted
information. The reply that came back to Maye was “no
wants and no records” from the NCIC Hot Files. That
reply does not constitute acquiring restricted or private information. See Maye’s Document 1, exhibit C,
pages 18-19 and evidence exhibits DD-MM.
4. On page 16, line 4 of the Order, the Court
found that the jury verdict and the Court’s repeated
findings dispute the argument that Maye accessed the
database within the scope of Maye’s duties as a Deputy
Sheriff. The evidence at trial shows that each access to
the database was within the scope of Maye’s duties; the
query was done during a traffic stop or tag verification,
and the Jury was not asked to find that the databases
were accessed outside the scope of Maye’s duties.
5. On page 16, line 8 of the Order, the Court
found that the facts proved at trial that the database
access was done outside Maye’s duties as a Deputy
Sheriff. The evidence does not support that finding.

App. 73
6. On page 16, line 11 the Order states “Maye,
then a sworn law enforcement officer, accessed a private, law enforcement database to endanger another or
to profit.” The evidence only shows that Florida’s
DHSMV was accessed.
7. On page 17, lines 10-15 of the Order, the Court
found that, through NCIC, Maye could access information about extradition, whether someone is armed
or dangerous, and information about temporary warrants. The trial evidence does not support that finding.
8. On page 18, lines 5-7, the Order states that
Maye was able to conduct searches in NCIC to determine if individuals had outstanding warrants. The evidence does not support that finding. Maye was only
able to access the State of Florida’s DHSMV and that
database would query the Hot Files of NCIC to determine if a person was wanted.
9. On page 18, lines 9-10 of the Order, the Court
found that negative responses confirmed information
not publicly available. The evidence does not support
that finding. Whether a person is wanted or not is publicly available information.
WHEREFORE, the Petitioner, CHARLES DANIEL MAYE, respectfully requests that this Honorable
Court grant this motion and amend the findings and
alter or amend the order (doc. 19) entered on February
16, 2018 to correct the manifest errors of law and fact.

App. 74
Respectfully submitted,
KENT & McFARLAND
ATTORNEYS AT LAW
s/William Mallory Kent
WILLIAM MALLORY KENT
Florida Bar No. 0260738
24 North Market Street
Suite 300
Jacksonville, Florida 32202
(904) 398-8000 Telephone
(904) 348-3124 FAX
(904) 662-4419 Cell Phone
kent@williamkent.com
ATTORNEY FOR MAYE

[Certificate Of Service Omitted]

APPENDIX F

App. 75
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
CHARLES DANIEL MAYE

8:17-cv-1314T-33MAP

vs.
UNITED STATES
OF AMERICA

8:04-cr-321T-30MAP
/

MAYE’S REQUEST FOR REMAND
FOR EVIDENTIARY HEARING
(Filed Mar. 16, 2018)
Comes Now the Petitioner, CHARLES DANIEL
MAYE, through his undersigned counsel, pursuant to
Rule 52(a)(5) and Rule 52(b), Federal Rules of Civil
Procedure, and respectfully requests this Honorable
Court remand the matter to the United States Magistrate Judge for additional findings of fact in consideration of Petitioner Maye’s Rule 59 motion, filed
concurrently herewith, and in addition, respectfully requests that the Magistrate Judge, on remand, review
the report of investigation (“ROI”) of the Department
of Justice that led to the termination of former Assistant United States Attorney Jeffrey DelFuoco, which
ROI was previously reviewed by the Magistrate Judge
in camera in Case Number 8:10-cv-01775, because Petitioner believes that that ROI may have a bearing on
the Court’s determination of the issues presented by
this petition.

App. 76
Respectfully submitted,
KENT & McFARLAND
ATTORNEYS AT LAW
s/William Mallory Kent
William Mallory Kent
Florida Bar No. 0260738
24 North Market Street
Suite 300
Jacksonville, FL 32202
(904) 398-8000
(904) 348-3124 FAX
(904) 662-4419 Cell Phone
kent@williamkent.com
COUNSEL FOR MAYE

[Certificate Of Service Omitted]

APPENDIX G

App. 77
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
CHARLES DANIEL MAYE
Case No: 8:17-cv1314-VMC-MAP

vs.
UNITED STATES OF
AMERICA

/

NOTICE OF APPEAL
(Filed Jul. 23, 2018)
NOTICE is hereby given that the Petitioner,
CHARLES DANIEL MAYE (“Maye”), appeals to the
United States Court of Appeals, Eleventh Circuit, from
the Order [Doc. 19] filed February 16, 2018, denying
the petition for writ of error coram nobis, and the Order [Doc. 28] filed May 23, 2018, denying the Rule 59(e)
motion to alter the judgment and Rule 52(a) and 52(b)
request for remand for evidentiary hearing, in the
above styled matter.
Respectfully submitted,
KENT & McFARLAND
ATTORNEYS AT LAW
s/William Mallory Kent
WILLIAM MALLORY KENT
Florida Bar No. 0260738
24 North Market Street, Suite 300
Jacksonville, Florida 32202
(904) 398-8000 Telephone
(904) 348-3124 FAX

App. 78
(904) 662-4419 Cell Phone
kent@williamkent.com
ATTORNEY FOR MAYE

[Certificate of Service Omitted]

